<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-151]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-151

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-536 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 12, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                          ADDITIONAL MATERIAL

Presidential nominations:
    Susan Parker Bodine to be an Assistant Administrator of the 
      Environmental Protection Agency............................    20
    Annie Caputo to be a Member of the Nuclear Regulatory 
      Commission.................................................    21
    David Wright to be a Member of the Nuclear Regulatory 
      Commission.................................................    22
Committee resolutions:
    Lease, Environmental Protection Agency, Philadelphia, 
      Pennsylvania, PPA-01-PH17..................................    23
    Department of Homeland Security, Immigration and Customs 
      Enforcement, Washington, DC, PDC-04-WA17...................    24
    Lease, Food & Drug Administration, Atlanta, GA, PGA-01-AT17..    25
    Lease, Internal Revenue Service, Austin, Texas, PTX-01-AU17..    26
    Lease, Peace Corps, Washington, DC, PDC-08-WA17..............    27
Legislation:
    Amendment in the nature of a substitute to S. 810, to 
      facilitate construction of a bridge on certain property in 
      Christian County, Missouri, and for other purposes.........    28
    Amendment in the nature of a substitute to S. 822, the 
      Brownfields Utilization, Investment, and Local Development 
      Act of 2017................................................    31
    Text of S. 1359, the John F. Kennedy Center Reauthorization 
      Act of 2017................................................    51
    Text of S. 1395, to revise the boundaries of certain John H. 
      Chafee Coastal Barrier Resources System units in Delaware..    55
    Text of S. 1447, the Diesel Emissions Reduction Act of 2017..    57

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:50 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Merkley, Gillibrand, Booker, Markey, Harris, and 
Shelby.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this business meeting to order.
    I thank everyone for coming this morning. We are here to 
consider three nominations, five bills, and five resolutions.
    Ranking Member Carper and I will give our opening 
statements. After that, other members may make remarks. We do 
have a reporting quorum at this point, so I would essentially 
like to move to the agenda, but we will be happy to listen to 
all opening statements that people would like to make. After we 
have completed the business portion of the meeting, if members 
want to make remarks, we will keep the meeting going for that. 
Once the business meeting concludes, we will immediately begin 
this morning's scheduled hearing.
    Today we consider two nominees for the Nuclear Regulatory 
Commission, one nominee for Assistant Administrator of the 
Environmental Protection Agency.
    I applaud the President's nominations of Ms. Caputo, Mr. 
Wright, and Ms. Bodine. They all have proven themselves to be 
well qualified, experienced, and dedicated public servants. 
Their confirmation will fill critically important roles in 
protecting Americans' public health and safety. I urge all my 
colleagues to vote yes on each of the nominations.
    We also will consider five bills and five resolutions:
    S. 822, the Brownfields Utilization, Investment, and Local 
Development Act. The BUILD Act reauthorizes and expands 
eligibility for brownfields cleanup grants and makes the use of 
those grants more flexible.
    S. 1447, the Diesel Emissions Reduction Act, reauthorizes 
and improves the Environmental Protection Agency's DERA 
program, which provides funding to projects that replace or 
retrofit older diesel vehicles, engines, and equipment.
    S. 1359, the John F. Kennedy Center Reauthorization Act, 
reauthorizes funding for the Kennedy Center.
    S. 810 paves the way for construction of a bridge in 
Christian County, Missouri.
    S. 1395 updates the current map delineating a coastal 
barrier resources system unit in Delaware by removing an area 
that was mistakenly included when the current map was made.
    We will also consider five resolutions to approve 
prospectuses for the General Services Administration leases.
    S. 822 and S. 810, we are marking up the substitute 
amendment to each of the bills previously circulated. I want to 
thank the members for their work to reach agreement on these 
amendments.
    I would also like to thank the members for their work in 
reaching agreement on the Diesel Emissions Reduction Act.
    I will now turn to our Ranking Member for his statement.
    Thank you, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Good morning, everybody.
    I am one of those glass half-full people, and I try to find 
the good in every situation. It gets more challenging as time 
goes by, but I want to start with what is good on today's 
markup. Mr. Chairman, colleagues, I think there is a lot of 
good that you have talked about and that we can look forward to 
in the next several minutes.
    I am pleased, for example, that we again have had the 
opportunity to work across party lines, as is our tradition, 
and on multiple pieces of legislation that will have real 
impacts on people's lives. I am really encouraged by the 
conversations that have gone on in the last 24 hours with your 
staff on an issue that is important to all of us.
    I want to take just a moment just to thank all of our 
staffs for the hard work that they have done that will enable 
us to slip through this day, this markup, I think, pretty 
quickly.
    These bills are bipartisan; they are critical for local 
economic development, job creation, and job growth. I think it 
is a win-win in my book.
    One of the bills that I have particular interest in is the 
Diesel Emissions Reduction Act of 2017, DERA. In 2005 our good 
friend, George Voinovich, came to me with the idea for DERA, 
and ever since then I have been one of the program's strongest 
supporters. DERA provides voluntary incentives to refit older 
diesel engines with American made technology. It is probably 
one of the most effective EPA programs resulting in enormous 
environmental and public health benefits, while creating jobs 
here at home.
    Today we extend this common sense program for 5 more years. 
Adoption changes proposed by our Chairman that encourage all 
communities, big and small, can use DERA more effectively. I 
want to thank him, and I especially want to thank Jim Inhofe 
for his leadership, and Sheldon Whitehouse for his leadership 
as we move this critical legislation.
    I want to thank you, Mr. Chairman, also for adding S. 1395 
to the business meeting agenda, the bill which I sponsored 
jointly with my Delaware colleague, Senator Coons, to remedy a 
mistake in the boundary of a unit, coastal barrier resource 
system located north of Bethany Beach, just a mistake that was 
made. The Coastal Barrier Resources Act enacted in 1982, when 
some of us were elected to the House, shields American 
taxpayers from liabilities that comes from building on 
previously undeveloped coastal barrier islands, something that 
Ben and I know something about.
    The original legislation identified these undeveloped and 
vulnerable islands on maps, and I will leave it for the record 
what I continue to say on that point.
    We are also going to be considering S. 822, the Brownfields 
Utilization, Investment, and Local Development Act, which 
reauthorizes brownfields grants programs at EPA. Each grant 
dollar that we spend at EPA on this program leverages something 
like $16 from State and private partners. I think for every 
dollar we spend in DERA we leverage about $19 in local moneys.
    Working with the Chairman's staff and Senator Sullivan's 
staff, I think we have been able to do something really 
important that was brought up at one of our hearings while I 
was away, some of our Alaska Native corporations were being 
treated. I think we have righted a wrong, and thank you for 
your leadership on that, Senator Sullivan.
    While we are considering GSA prospectuses today, I think we 
are taking this action less than 24 hours after GSA canceled 
the procurement process for the proposed new FBI headquarters. 
Abrupt action for something that has been in the pipeline for a 
long time. It is deeply troubling.
    I hope we can work together. I understand that we are 
having some good conversations. We hope we can continue those. 
This is a big deal for a number of people on this Committee and 
I think for people in this region and for the folks in the FBI.
    We are going to hear today several nominations. First among 
these nominations, Susan Bodine, who has been tapped to lead 
EPA's Office of Enforcement and Compliance Assistance. Susan 
has been a collegial partner to my staff and I think to all of 
our staffs, and the Agency's gain will be our Committee's loss.
    However, I said when her nomination was announced, I am 
unable to support any nominees to the EPA until Administrator 
Pruitt responds to our many unanswered letters from this side 
of the aisle to him by members of this Committee. I very much 
appreciate the constructive meeting--I have discussed this with 
our Chairman--on this topic that took place at the end of June 
between EPA staff, our staff, my staff, and the Chairman's 
staff.
    I also appreciate that shortly after that meeting EPA 
provided a substantive, though incomplete, response to a letter 
we sent EPA on its enforcement efforts. We hope to soon receive 
complete responses to the balance of our very reasonable 
oversight requests.
    Mr. Chairman, that leads me to briefly mention NRC 
nominees. I will just say very briefly we have two good 
nominees before us. We have already confirmed Kristine Svinicki 
so that the NRC can function. I would like to get the other two 
done.
    I would also like to make sure that we pair those two names 
with the name of a fellow who is already there, Commissioner 
Baran, Jeff Baran, who is in his last year, his last, I think, 
10, 11 months, and we would like to get him done. We would like 
to pair them together and get them all done and provide real 
certainty and predictability on a path forward and have five 
excellent people on the NRC.
    With that, I will ask the rest of my remarks, which could 
go on for hours, be made part of the record.
    [The prepared statement of Senator Carper was not received 
at time of print.]
    Senator Barrasso. Yes.
    Senator Cardin.
    Senator Cardin. Yes. And I am going to be very, very brief. 
I just really wanted to share with my colleagues a discussion I 
had with the Chairman and Ranking Member about my concern with 
what the GSA did on the cancellation of the FBI consolidation. 
I think this is extremely dangerous to our national security, 
and I think it is going to be extremely costly to the taxpayers 
of this country.
    And I thank the Chairman and Ranking Member because they 
ignored the wishes of this Committee in the authorizations that 
we gave, as well as the appropriation process, and I look 
forward to this Committee exercising its oversight function.
    Senator Barrasso. And thank you for your leadership in this 
and for taking the time to visit with me yesterday and our 
commitment to move ahead with the hearing and asking for 
additional information.
    As we talked earlier the Washington Post editorial this 
morning I think had a good point on what we are dealing with 
here. This has been a project a long time in the making and to 
just abandon it that way, without ever coming to the Committee 
or to others, is something that there is a role for Congress to 
play in this, specifically since the amount of money that would 
be wasted, I think, by making that decision they did is one 
that we need to look into. So thank you for your leadership 
there.
    Now that the members have arrived, we are going to defer 
additional statements until the end of the meeting. The Ranking 
Member and I have agreed to bring up each nominee for a 
separate vote, and the Ranking Member has requested that each 
of the nominees receive a roll call vote.
    The Ranking Member and I have agreed to vote on the 
remaining items en bloc by voice, but members may choose to 
have their votes recorded individually, and we would be happy 
to do that. The Ranking Member and I have further agreed that 
S. 1447, the Diesel Emissions Reduction Act, which was 
introduced on June 27th, replaces the text that was circulated 
with the notice on June 23rd. So this introduced bill is 
identical to the text that we have circulated.
    So, to begin with, I would like to call up presidential 
nomination 560, Ms. Annie Caputo, of Virginia, to be a member 
of the Nuclear Regulatory Commission for the term of 5 years, 
expiring June 30th, 2021.
    I move to approve and report the nomination favorably to 
the Senate. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. Yes.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. Yes.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. Yes by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. I am torn between yes and aye.
    [Laughter.]
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 15, the nays are 6.
    Senator Barrasso. Then we have approved the nomination of 
Ms. Caputo to be a member of the Nuclear Regulatory Commission, 
which will be reported to the full Senate for approval.
    I would now like to call up presidential nomination 562, 
Mr. David Wright, of South Carolina, to be a member of the 
Nuclear Regulatory Commission for a 5 year term expiring June 
30th, 2020.
    I move to approve and report the nomination favorably to 
the Senate. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 12, the nays are 9.
    Senator Barrasso. We have approved the nomination of Mr. 
Wright to be a member of the Nuclear Regulatory Commission, 
which will be reported to the full Senate for approval.
    I would like to call up presidential nomination 460, Ms. 
Susan Bodine, of Maryland, to be Assistant Administrator of the 
Office of Enforcement and Compliance Assurance of the 
Environmental Protection Agency.
    I move to approve and report the nomination favorably to 
the Senate. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    Senator Duckworth, no by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 12, the nays are 9.
    Senator Barrasso. Thank you very much.
    We have approved the nomination of Ms. Bodine to be 
Assistant Administrator of the Office of Enforcement and 
Compliance Assurance of the Environmental Protection Agency, 
which will be reported to the full Senate for approval.
    I would like to now call up the remaining items en bloc. I 
move approval of the Barrasso, Carper, Inhofe, Markey, 
Sullivan, Booker, and Whitehouse substitute amendment to S. 822 
and report S. 822, as amended; to approve the manager's 
substitute amendment to S. 810 and report S. 810, as amended; 
approve reports S. 1447, S. 1359, and S. 1395; and approve five 
General Service Administration resolutions en bloc. Is there a 
second?
    Senator Inhofe. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, say no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved S. 822, S. 810, S. 1447, S. 1359, S. 
1395, which will be reported favorably to the Senate. We have 
also approved five GSA resolutions.
    The business part of this meeting is finished.
    I would be happy to recognize any member who wishes to make 
a statement on the nominations, legislation, or resolutions we 
have just approved.
    And I would ask the Clerk to clarify the last two votes 
that I think have been announced as 12 to 9 and may have been 
11 to 10 by the count of some members. If we could just double 
check those last two votes, please.
    The Clerk. For the nomination of Susan Bodine, the yeas are 
12, or 11, and the nays are 10.
    Senator Barrasso. Thank you.
    And the other? Mr. Wright.
    The Clerk. For the nomination of David Wright, the yeas are 
11 and the nays are 10.
    Senator Barrasso. Thank you for the clarification.
    Senator Carper. Can we just count them one more time?
    [Laughter.]
    Senator Barrasso. Would any member like to be recognized?
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. I just want to 
thank you and thank Ranking Member Carper, but to thank my 
friend, Jim Inhofe. We worked very hard on the brownfields bill 
last year, and it was then stopped over in the House. We have 
an even better product this year that really is going to 
provide our capacity to clean up all of these contaminated 
sites, not just in Massachusetts, but all across the country, 
which are a legacy of 100 years of neglect.
    I just think that it is a real tribute once again to the 
Committee, and I thank you, Chairman, for working with me on 
this legislation, and I thank all the rest of the members of 
the Committee as well. And I yield back to you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Anyone else like to make a statement?
    Senator Sullivan.
    Senator Sullivan. Mr. Chairman, I want to thank you and the 
Ranking Member.
    Ranking Member Carper already mentioned the amendment that 
I had, but it stemmed from some, I think, very compelling 
testimony we had here a couple months ago that a lot of members 
witnessed, and it is essentially righting a wrong, enabling 
Alaska Native members to be able to develop their land as was 
promised by the Congress, and I just appreciate everybody 
working in a bipartisan way to help address this issue, which 
is important to some very important constituents of mine. So I 
want to thank the Chairman and the Ranking Member and everybody 
else on that. Thank you.
    Senator Barrasso. Thank you, Senator Sullivan.
    Anyone else like to make any comments at this time as part 
of the business meeting?
    If not, I would like to submit the Committee's fiscal year 
2018 Views and Estimates document sent to the Senate Budget 
Committee, dated March 10, 2017, for the record. These 
estimates, signed by Ranking Member Carper and by me, highlight 
our support for funding of the Diesel Emissions Reduction Act. 
The document states--and I won't go through the whole thing 
here--but that the Committee supports funding of the Diesel 
Emissions Reduction Act established pursuant to the 2005 Energy 
Policy Act. Without objection, that will be submitted.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Barrasso. I now ask unanimous consent that the 
staff have the authority to make technical and conforming 
changes to each of the matters approved today.
    With that, the business meeting is concluded and adjourned.
    [Whereupon, at 10:08 a.m., the Committee proceeded to other 
business.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                             [all]
                             
                             
                             
                             
                             
</pre></body></html>
